OFFICE OF INSPECTOR GENERAL
 for the Millennium Challenge Corporation



AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
TRANSPORT INFRASTRUCTURE
PROJECT IN VANUATU



AUDIT REPORT NO. M-000-10-005-P
September 30, 2010



WASHINGTON, DC
            Office of Inspector General
             for the Millennium Challenge Corporation


September 30, 2010


The Honorable Daniel W. Yohannes
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, NW
Washington, DC 20005

Dear Mr. Yohannes:

This letter transmits the Office of Inspector General’s final report on the Audit of the Millennium
Challenge Corporation’s Transport Infrastructure Project in Vanuatu. In finalizing the report, we
considered your written comments on our draft report and included those comments in their
entirety in Appendix II of this report.

This report contains seven recommendations for corrective actions. We have reviewed your
comments and determined that final action has been taken on Recommendations 2, 4, 5, and 6
and management decisions have been reached on Recommendations 1, 3, and 7.

I appreciate the cooperation and courtesy extended to my staff during this audit.


Sincerely,


Alvin A. Brown /s/
Assistant Inspector General
Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street, NW
Suite 770
Washington, DC 20005
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1
Audit Findings ................................................................................................................. 6


          Project Success Could Not Be Measured ............................................................ 6
          Early Implementation Problems May Result In Diminished Project Results ......... 9
          Roads May Not Be Sustainable After Compact Closure ................................... . 13
          MCA-Vanuatu Was Not on Schedule With Closeout......................................... . 16


Evaluation of Management Comments ....................................................................... 18
Appendix I – Scope and Methodology ........................................................................ 20
Appendix II – Management Comments ....................................................................... 21
Appendix III – Provisions Not Found in Draft Closeout Plan.................................... 29
SUMMARY OF RESULTS
In March 2006, the U.S. Government, acting through the Millennium Challenge
Corporation (MCC), 1 signed a 5-year, $65.7 million compact 2 with the Government of
Vanuatu to reduce poverty and stimulate economic growth by targeting the country’s
poor transportation infrastructure. The compact was designed to benefit poor, rural
agricultural producers and providers of tourism-related goods and services by reducing
transportation costs and improving the reliability of access to transportation services.

The MCC compact with Vanuatu entered into force in April 2006, formally initiating the 5-
year timeline for implementation of the Transport Infrastructure Project (the project). The
Government of Vanuatu established an entity called the Millennium Challenge Account
for Vanuatu (MCA-V) to implement the project, manage procurements, and serve as the
central point of contact for MCC. The compact will end on April 28, 2011.

The project was formally rescoped in early 2008. The rescoped project consists of (1)
construction and sealing of two national roads, the Efate Ring Road and the Santo East
Coast Road (shown in maps on the following pages), and (2) institutional strengthening
of the Vanuatu Public Works Department (PWD). As of March 31, 2010, MCC had
disbursed $29.7 million for the Efate Ring Road and $18.8 million for the Santo East
Coast Road. The roads are scheduled to be completed by December 2010.

The objective of the audit was to determine whether the project in Vanuatu is stimulating
economic activity in the agricultural and tourism sectors through the improvement of
transport infrastructure. Although beneficiaries and stakeholders commented that the
new roads have positively improved their livelihoods, the compact may not result in
stimulating economic growth in the tourism and agricultural sectors through the
improvement of transport infrastructure as intended. At the time of our visit, MCA-V had
not finalized a 2010 monitoring and evaluation (M&E) plan although a 2009 plan was in
place. The 2010 plan included the appropriate indicators that would effectively measure
the progress of the project.




1
  Established in 2004 by the Millennium Challenge Act of 2003 (Public Law 108-199), MCC is a
U.S. Government corporation that works to reduce poverty and stimulate economic growth in
some of the poorest countries in the world.
2
  Compacts are large, 5-year grants for countries that meet MCC’s eligibility criteria. The cost of
the compact with Vanuatu included $60.7 million for the Transport Infrastructure Project (including
$54.5 million for the infrastructure activity and $6.2 million for institutional strengthening), $1.6
million for program management, $1.4 million for monitoring and evaluation, $1.7 million for fiscal
and procurement agents, and $0.3 million for audits.


                                                                                                   1
The above photo is a map of the island of Efate and shows the Efate Ring Road project, which
circles most of the island’s coast. The ring road starts at Mele Bay and ends around Erueti Lep.
Source: Downer EDI Works, Ltd.




                                                                                       2
The above photo is a map of the island of Espiritu Santo, which is usually referred to as Santo.
The Santo East Coast Road project begins near Luganville and ends at Port Olry.
Source: Downer EDI Works, Ltd.




                                                                                   3
The project may not stimulate economic growth in the tourism and agricultural sectors
through the improvement of transport infrastructure as intended for the following
reasons:

Project Success Could Not Be Measured – At the time of the audit, MCC had not
finalized a 2010 M&E plan to include the appropriate indicators that would annually
measure economic growth. MCC did have a 2009 M&E plan. However, we believe that
without establishing annual targets, which provide up-to-date performance data, MCC
would not be able to modify the project as needed during its progression and cannot
determine whether the project is meeting its intended results until after the compact ends
(page 6).

Early Implementation Problems May Result In Diminished Project Results – MCC
and MCA-V had early implementation problems that resulted in delayed procurements.
The bids initially received for the project were $132 million and $155 million, almost triple
the $54 million budgeted for the road construction project. MCC rescoped the compact
instead of requesting additional funding from Congress. As a result, MCC funded only 2
of 11 subprojects for $54 million. MCC also modified the standards for the roads (page
9).

Roads May Not Be Sustainable After Compact Closure – Vanuatu’s Public Works
Department (PWD) is responsible for maintaining the country’s 1,800-kilometer national
road network, including the two MCC-funded roads. However, MCC canceled the
portion of the compact that was for strengthening the PWD. Therefore, PWD was not
capable of maintaining the roads due to a lack of training, and Vanuatu’s budget was not
enough to support sustaining the roads (page 13).

MCA-Vanuatu Was Not on Schedule With Closeout – MCC did not approve the
closeout plan within the required 360 days before compact closure. An approved
closeout plan will ensure the proper disposition of program assets, and required program
documents are retained and archived (page16).

This report includes seven recommendations to MCC’s Vice President of Compact
Operations:

1. Finalize the Millennium Challenge Account-Vanuatu’s monitoring and evaluation plan
   by confirming approval of the plan for implementation (page 8).

2. Develop and implement a process that would measure the progress of projects
   annually throughout the compact to help ensure intended results are met (page 8).

3. Direct Millennium Challenge Account-Vanuatu to respond formally to data quality
   review recommendations, and post the reviews and responses on its Web site as
   required by the Millennium Challenge Corporation’s monitoring and evaluation policy
   (page 8).

4. Develop a written strategy to resolve budget shortfalls when they occur (page 13).

5. Develop a written strategy to support Millennium Challenge Account-Vanuatu’s
   efforts to strengthen Vanuatu’s Public Works Department’s ability to maintain the
   roads (page 16).


                                                                                           4
6. Finalize Millennium Challenge Account-Vanuatu’s draft closeout plan (page 16).

7. Develop written procedures for the Millennium Challenge Account-Vanuatu on
   safeguarding documents that serve as permanent records, and on locating and
   identifying key missing documents of program activities (page 17).

Detailed findings appear in the next section. Appendix I presents information on the
audit scope and methodology. Appendix II contains management comments in their
entirety.

In its response, MCC agreed with the seven recommendations in the draft report. The
Office of Inspector General (OIG) reviewed MCC’s response and determined that final
action has been taken on Recommendations 2, 4, 5, and 6 and that management
decisions have been reached on Recommendations 1, 3, and 7.




                                                                                    5
AUDIT FINDINGS
The compact was initially designed to benefit about 65,000 poor, rural inhabitants. After the
compact was rescoped, the Efate Ring Road and the Santo East Coast Road are expected
to benefit 21,000 rural inhabitants living nearby who will use the roads to access markets
and social services. The roads are also expected to benefit tourism and roadside
businesses, reduce transportation costs, and improve the reliability of transportation
services.

Moreover, beneficiaries and stakeholders commented that the new roads had improved
their livelihoods. The audit team interviewed 115 villagers on the islands of Efate and
Santo to obtain their views on the benefits brought about by the new roads. The vast
majority of villagers spoke positively about the new roads. Many stated that the new
roads shortened their trips to the respective capital cities by as much as 50 percent.
Another stated that village women could now transport their vegetables to market in half
the time it took previously. Further, two business owners stated that the Efate road
allowed them to double their incomes as a result of increased patronage of their tourist-
related businesses.

The project may not achieve its intended results of stimulating economic growth in
Vanuatu for the reasons detailed below.

Project Success Could Not Be
Measured
MCC’s M&E policy, 3 Subparagraph 5.1.1, states that “The M&E Plan is a tool to plan
and manage the process of monitoring, evaluating and reporting progress towards
achieving compact results.” The M&E plan lays out how the results of a program will be
measured using quantitative, objective, and reliable data called indicators. Each
indicator has one or more targets, which specify the expected result (such as dollars for
cash income per capita and kilometers of roads upgraded) and the expected date by
when the result will be achieved. A tool called the Indicator Tracking Table (ITT), which
is included in the M&E plan, is used to track the indicators and their targets.
Subparagraph 5.4.2 of the policy states, “Effective management decisions depend upon
regular collection of up-to-date performance information.”

The progress of the transport infrastructure project toward achieving compact results
could not be determined. Reasons included the following:

Revisions to the M&E Plan – The original M&E plan, dated June 2006, was revised
and approved in June 2009 due to the rescoping of the compact (details on the
rescoping are discussed in the finding entitled Early Implementation Problems May
Result in Diminished Project Results). After June 2009, MCA-V continued revising the
M&E plan, but at the time of the audit, had not finalized the 2010 plan. The audit team
obtained a draft copy of the revised ITT, on May 11, 2010, which provided the latest

3
    Policy for Monitoring and Evaluation of Compacts and Threshold Programs, May 12, 2009.



                                                                                             6
indicators. The audit team reviewed 21 indicators 4 in the M&E plans and found that as
of May 2010, only 10 indicators remained unchanged. The remaining indicators were
revised, added, or eliminated. Because a revised 2010 M&E plan was not finalized,
MCC could not report on whether the roads it funded for about $54 million stimulated
economic growth in Vanuatu. For example, MCC’s annual reports to Congress for 2008
and 2009 did not address whether the projects would achieve its intended results.
Section 613, “Annual Report,” of the Millennium Challenge Act of 2003, as amended,
states that Congress is required to receive an annual assessment of the extent to which
MCC’s assistance has been effective in helping the country achieve compact objectives.

Data Collection for Indicators – MCA-V prepared and MCC approved a 2010 M&E
plan that did not measure most results until the end of the compact. It was not intended
that annual assessments of indicators would be conducted to measure the progress of
the transport infrastructure project. Therefore, MCC would not be able to identify the
progress of the project until Year 5. 5 MCC’s M&E policy states that “effective
management decisions depend upon regular collection of up-to-date performance
information.” The plan called for data for 12 established indicators to be collected only in
the baseline year, Year 4, and/or Year 5 of the compact. For example, seven indicators
were only measured in the baseline year and in Year 5. Only one indicator was
measured quarterly. However, the target for that indicator, the number of international
tourists, was exceeded even as early as Year 1 (April 2006–March 2007), at least 2
years before the road construction contract was signed in May 2008. The targeted
number of international tourists in Year 1 was 65,755 but the actual number was 70,871.
According to MCC officials, data necessary to measure the impact of the compact would
not be available until after compact closure.

Even for indicators MCA-V planned to measure, it did not obtain the data from those
conducting the surveys. For example, two indicators were only measured in the
baseline year (2008), Year 4, and Year 5. Vanuatu’s Public Works Department, which
was also responsible for conducting the surveys, had not provided MCA-V with the
results. Thus, the results of these surveys could not be posted on the ITT, as required
by MCC’s M&E policy. Section 5.3 of the policy states that MCAs must report to MCC
on indicators in the M&E plan on a quarterly basis using the ITT.

MCA-V did not ensure that the survey implementer documented methodologies for
surveys conducted in 2008. MCA-V still planned to use the results of the surveys as
baseline data. MCC’s M&E policy, Subparagraph 5.4.2, states that “Data should reflect
stable and consistent data collection processes and analysis methods over time.” This
policy addresses the need to document surveys to ensure the ability to duplicate future
surveys.

Because quantified data on indicators were not available to show the results of the
project at the time of audit fieldwork, the audit team held discussions with about 115
villagers on both islands to obtain their views on the benefits of the roads. From these
discussions, the audit team found the roads were already having an impact on their

4
  Twenty-one high-level indicators (goal, objective, and outcome) were reviewed during the audit
because they helped demonstrate compact results over time.
5
  The compact’s year was April to March. Therefore, Year 5 is April 2010 to March 2011, with the
compact ending in April 2011.



                                                                                              7
livelihood although the roads were still being constructed. The audit team also spoke
with business owners who stated that their customers have already increased due to the
roads.

Without annual targets, MCC would not be able to modify the project as needed during
its progression. Also, because data results for the goal indicators will not be available
until after the compact ends, MCC had no way to measure the progress of project until
the end of the compact. In the case of Vanuatu, MCC did not annually measure the
impact of projects as they progressed. Such a process would enable MCAs to
determine the progress of compact projects and provide MCC with up-to-date
performance information.

Responses to Data Quality Reviews – MCC’s M&E policy, Subparagraph 5.4.3,
requires that data quality reviews be performed by an independent entity. Data quality
reviews assess data collection instruments and procedures, survey sampling
methodology, and data manipulation and analyses. MCA-V hired a policy management
firm to conduct the data quality reviews. This firm issued reports on its data quality
reviews in February 2008 with 34 recommendations and December 2009 with 37
recommendations. For example, in the 2009 data quality report, the firm recommended
that baseline values be amended using cash expenditures instead of incomes, a poverty
specialist be recruited, and the collection of local prices be improved.

According to MCC’s M&E policy, Subparagraph 5.4.4, MCAs must provide comments on
data quality reviews, indicating which recommendations will be implemented. Further,
Section 5 of the June 2009 M&E plan states, “MCA-Vanuatu will implement
recommendations of the Data Quality Auditor within 3 months of the audit or provide
justification for non-compliance when recommendations are not followed.” However,
according to MCC on June 1, 2010, it did not have copies of any formal responses or
comments from MCA-V on the data quality reports, only informal e-mail exchanges.
Without MCA-V’s formal comments on the data quality reports, MCC did not know
whether MCA-V planned to implement MCC-approved recommendations.
Subparagraph 5.4.4 of the M&E policy also requires that MCAs post their data quality
reviews and comments on their Web sites. As of July 21, 2010, MCA-V had not posted
its comments on the February 2008 data quality review, nor had MCA-V posted the
December 2009 data quality review and comments on it.

     Recommendation 1. We recommend that the Millennium Challenge
     Corporation’s Vice President of Compact Operations finalize the Millennium
     Challenge Account-Vanuatu’s monitoring and evaluation plan by confirming
     approval of the plan for implementation.

     Recommendation 2. We recommend that the Millennium Challenge
     Corporation’s Vice President of Compact Operations develop and
     implement a process that would measure the progress of projects annually
     throughout the compact to help ensure intended results are met.

     Recommendation 3. We recommend that the Millennium Challenge
     Corporation’s Vice President of Compact Operations direct Millennium
     Challenge Account-Vanuatu to respond formally to data quality review
     recommendations, and post the reviews and responses on its Web site as



                                                                                       8
     required by the Millennium Challenge Corporation’s monitoring and
     evaluation policy.

Early Implementation Problems May
Result in Diminished Project Results
Initial implementation of the $65.7 million compact did not take place until 2008, about 2
years into the 5-year compact. Several problems, including removal of key staff and
delayed procurement actions, led to the delay. Further, the initial bids were almost triple
the $54 million budgeted for the road construction project. To ameliorate these and
other early problems, MCA-V and the Government of Vanuatu, with no objection from
MCC, decided to rescope the infrastructure activity by eliminating 9 of the original 11
subprojects. The rescoped project focused on the building of two roads, one each on
the islands of Efate and Santo.

Early Problems – Some of the early problems that delayed implementation were
identified in an MCC action memorandum, dated January 28, 2008, which stated that:

       The Project has suffered from very substantial delays in implementation,
       including the termination of the first procurement agent; the consequent
       taking over of procurement functions including preparation of bid
       documents by MCC; and a lack of readiness of the project at the time of
       Entry into Force, as measured by a lack of finalized implementing entity
       agreements, bid documents for procurements and staff resources to
       help fill the gap.

Other early problems which further delayed implementation were that two key personnel
were replaced early in the compact. Also, Government of Vanuatu officials and staff
acknowledged that the compact was a new experience for Vanuatu and that the country
lacked experienced staff necessary to implement and manage such a complex project.
MCC officials and staff admitted that the project “did not have the right mix of people in
the beginning.” Further, only one staff member who had participated in the initial project
implementation remained at MCA-V at the time of our visit.

The initial bidding documents were not issued until the second year of the compact. An
international prequalification process was conducted with support from MCC, resulting in
three companies being prequalified. A comprehensive Invitation for Bids document
covering design and build of the 11 subprojects on eight islands was developed by MCC
and issued to the three companies on June 15, 2007. On September 27, 2007, two bids
were received—one bid at $132 million and the other at $155 million. These bids
exceeded the road construction budget of $54 million by nearly a factor of 3. The
procurement was canceled on December 13, 2007, because of the high bids.

Rescoping the Compact – To address the early problems, MCC sent a team to
Vanuatu that included an engineer from the U.S. Army Corps of Engineers. The team
identified 16 options available to MCA-V and the Government of Vanuatu in a document
entitled “MCA-Vanuatu - Design & Build Contract Options Paper.” One option was to
rescope the compact and reduce its scope. MCC and MCA-V selected that option.
According to the options paper, the advantages of rescoping included that (1) it offered




                                                                                         9
“possible cost savings,” (2) subprojects would “appear to be delivered as promised,” and
(3) it constituted a “potentially quick solution.” However, disadvantages included (1)
“reduced quality may affect the infrastructure’s life span,” (2) “reduced quality
infrastructure may be more susceptible to … damages, leading to increased repair and
maintenance costs for PWD,” and (3) the U.S. Government may question “the economic
benefits of a program with lowered quality standards.”

MCA-V issued Tender No. MCA-VAN-02 in February 2008. A bidder who was
eventually awarded the contract stated that the budget allowance of about $54 million
was “only sufficient to complete the works as identified in Scheme A [Schedule A 6 ]—all
other works would be dependent on securing alternative funding.” MCA-V and the
Government of Vanuatu, without objection from MCC, rescoped the project from 11 to 2
subprojects (the Efate Ring Road and the Santo East Coast Road) rather than add
additional U.S. Government funds to the compact although the Millennium Challenge
Corporation Act (MCC Act) of 2003, as amended, allows for the refunding of compacts.
According to MCC, the Prime Minister of Vanuatu solicited donations from New Zealand
when it was discovered that the $54 million would not cover sealing the entire Santo
East Coast Road. The New Zealand Agency for International Development provided
about $10 million to assist in completing the road.

Modified Standards – On May 2, 2008, the contractor who submitted the lowest bid,
Downer EDI Works, Ltd., of New Zealand, signed the design-and-build contract with
MCA-V. In April 2008, MCA-V and the contractor held negotiations and agreed to
design a project approach. The project approach was rescoped to allow “completing the
maximum amount of work in the minimum period of time within the available budget.”
The resulting approach identified the Government of Vanuatu’s priorities as the roads on
the islands of Efate and Santo. The approach allowed for variations from the “nominated
standards” with agreement by the engineer. The approach also allowed for other
changes. For example:

    •   Reducing base and sub-base material 7 requirements
    •   Reducing the width of the Santo road from 6 to 5 meters with a 1-meter shoulder
    •   Removing the concrete requirement on slopes exceeding 12 percent

During discussions with beneficiaries, the audit team found consistent concern with the
thinness of the road’s seal, uneven edges (see photo below), and the road’s width. The
road’s seal was also discussed in a desktop review and site inspection by an
independent engineering firm, dated March 2, 2010. The review provided comments on
the sprayed seal surfacing performance and recommended remedial treatments. The
inspection report stated:

        The current design and construction practices are not considered
        sufficient to provide a satisfactory seal design life of the order of at least 5
        to 12 years. The Downer EDI Road Maintenance Manual (Page 59)

6
  Schedule A to Tender No. MCA-VAN-02 contained the price summary for bids on the design of
all subprojects and construction of the Efate Ring Road and the Tanna White Sands Road. The
Tanna White Sands Road was subsequently replaced by the Santo East Coast Road.
7
  The base or sub-base material is a layer of crushed rock or other materials used for paving a
road.



                                                                                            10
       recommends the full site [be] resealed with a 14mm to 20mm aggregate
       at the beginning of year 3 or earlier if funds allow.

As noted above, the base and sub-base materials were modified to stay within the
budget. The Fédération Internationale des Ingénieurs Conseils (FIDIC) engineer
estimated that $50,000 per kilometer, or about $7.4 million, would be required to reseal
the 149 kilometers of constructed project roads.




The photo above shows that at the time of the auditors’ site visit, the edge of the Santo East
Coast Road appears uneven. MCC officials subsequently stated that the uneven edge has been
repaired. (Photo by OIG, April 26, 2010)

An MCA-V official stated that the use of modified standards would not affect the road’s
quality but could affect the road’s useful life. He estimated that the roads would more
likely need maintenance in 5 to 8 years and stated that the completed roads should be
“adequate.” By comparison, the audit team found that the Japan International
Cooperation Agency constructed a section of road on Efate about 10 years ago. The
road was built to full Australian standards.

The audit team observed problems with the road width. During a road trip to Santo, the
audit team travelled behind a truck that took up the entire lane. The driver needed to
drive on the road’s edge to avoid oncoming vehicles. Also, the audit team found that
there were drainage problems in causeways in one section of the road that could
necessitate additional repairs if flooding continues beyond the contractor’s period of
defect liability.




                                                                                           11
The above photo shows that at the time of the auditors’ site visit, a causeway on Efate Ring Road
failed after heavy rains. Accumulated rain water found a path under the road. The now
unsupported shoulder of the road is breaking up. MCC officials subsequently provided us with a
photo showing this causeway has been repaired. See Appendix II. (Photo by OIG, April 20, 2010)




The above photo shows that at the time of the auditors’ site visit, a drain on the Efate Ring Road
became covered with debris from a failed drain located higher on the hill. That drain failed
because of heavy rains. MCC officials subsequently provided us with a photo showing the drain
has been repaired. See Appendix II. (Photo by OIG, April 20, 2010)

The completed roads may not meet beneficiary expectations. Also, the modified
standards may impact the life span of the infrastructure project, thereby minimizing the
long-term use of the road. MCC had estimated that $95 million would be required to




                                                                                               12
fund the original 11 subprojects. 8 The MCC Act provides for increasing funding to
existing compacts with congressional notification and publishing of the justification in the
Federal Register. However, MCC officials stated that “the timing was not right for MCC
to pursue those actions.”

In response to our draft report, MCC informed us of the following:

      • The Santo East Coast Road has now been sealed to the 6-meter width.

      •   Slopes with a significant gradient were concreted, and those with lesser degrees
          of gradient were given a third seal.

      • The Downer EDI Road Maintenance Manual, in draft form at the time of our audit,
         has since been revised to its final form, and the recommendation that the full site
         be resealed with a 14mm to 20mm aggregate at the beginning of Year 3 or
         earlier was removed.

      •   All early sealing problems have been rectified, and all work requiring resealing or
          a third seal due to the initial methods has been completed and is satisfactory.

          Recommendation 4. We recommend that the Millennium Challenge
          Corporation’s Vice President of Compact Operations develop a written
          strategy to resolve budget shortfalls when they occur.

Roads May Not Be Sustainable After
Compact Closure

The transport infrastructure project may not stimulate economic activity through the
improvement of transport infrastructure as required by the compact. This occurred
because MCC did not develop a written strategy that would provide enough support to
strengthened PWD’s ability to maintain the road projects. Also, Vanutau’s PWD,
responsible for sustainability of the roads, had limited capacity to perform road
maintenance. Although the GoV budgeted about $5 million for road maintenance as
required by the compact, it may not be enough to sustain the roads. As a result, the
roads may not be properly maintained annually.

Section 1.1(b) of the compact states that one key project objective to help stimulate
economic activity is strengthening the ability of the Government of Vanuatu, specifically
the capability and capacity of PWD, to maintain Vanuatu’s infrastructure assets. In
addition, Subparagraph 2(b) of Schedule 1 to Annex I of the compact states that the
program will provide support for the sustainability and viability of PWD through
organizational reform and policy changes. Further, Subparagraph 5(a) states that MCC
funding will expand PWD’s capability and capacity in all maintenance and repair
activities.

Budget for Maintenance of Roads – The budget for road maintenance may not be
sufficient. The Government of Vanuatu allocated about $5 million for road maintenance

8
    MCC Infrastructure Project Re-Estimates Summary Table, May 23, 2008.



                                                                                          13
in 2009 and 2010, as required by Subparagraph 5(b)(i) of the compact. The
subparagraph states that the MCC and the Government of Vanuatu agree that an annual
budget of about $5 million is considered an appropriate level of funds for road
maintenance. However, only about $2 million was allocated each year specifically for
road repairs and maintenance. The road maintenance budget is for the 1,800 kilometers
of national roads, which includes the 149 kilometers of roads that MCC funded.

In addition, the Service Performance Agreement between PWD and the Ministry of
Infrastructure and Public Utilities, dated March 2008, stated that the Government of
Vanuatu would increase funding for road maintenance over about 4 years to about $5
million annually (2006 prices) for a national road network of about 1,800 kilometers.

The Australian Agency for International Development analyzed the road sector for its
Vanuatu Transport Sector Support Program and produced a report stating that about
$2 billion Vatu (about $19 million) was actually needed for roads. The report further
stated that, “Even the substantially increased annual budget of $500 million Vatu (about
$5 million) is only likely to meet around 25% of actual maintenance needs (or around
500 kilometers of roads)” of the 1,800 kilometers that PWD is responsible for
maintaining.

Finally, the supervisory engineer stated that it would cost $50,000 to reseal each
kilometer of road. Therefore, PWD would need about $7.5 million just to reseal the 149
kilometers of MCC-funded roads.

In the future, PWD may also need to replace pipes in private driveways. Flooding has
occurred because pipes were too small. (See photo on next page.) The supervisory
engineer had received complaints regarding the driveways, and drainage problems have
occurred. According to an MCA-V official, if all 600 pipes needed to be replaced, PWD
would have to spend about $1.2 million. Replacing the pipes would strain limited road
maintenance funds.

Capability of PWD – The capability of PWD to sustain the roads has been an ongoing
concern of the Government of Vanuatu, MCA-V, MCC, and the supervisory engineer.
The Government of Vanuatu’s country proposal, dated March 2005, recognized the lack
of PWD’s capacity to maintain transport infrastructure projects. The proposal stated that
“maintenance has suffered in part because of the deterioration of PWD[‘s] capacity.”
MCA-V noted in its narrative report for April through June 2009 that it had delayed
purchasing additional equipment because of PWD’s underperformance.                 MCC
responded to MCA-V’s narrative report in a letter dated June 30, 2009. MCC stated that
while MCC will continue to work with MCA-V to enhance the capacity of PWD, MCC was
“disappointed in PWD’s lack of cooperation to date” and hoped to see demonstrated
improvement “as evidence of the Government’s commitment to the proper and
sustainable maintenance of the roads built under the compact.”

The supervisory engineer’s monthly report for May 2008 stated that PWD did not have
sufficient capacity and experience to supervise a design-and-build contract of this size,
nor was it able to fulfill the role of the engineer. Therefore, the role of the engineer was
assigned to a technical advisor under the supervisory engineer until sufficient capacity
was developed within PWD. PWD was to assume the duties of the engineer after 18
months because there was no financial provision for the technical advisor to extend this



                                                                                         14
role. The supervisory engineer repeated this issue in his August through December
2008 monthly reports. As late as March 2010, the supervisory engineer stated that the
technical advisor should continue as the FIDIC engineer until PWD had the necessary
capacity to take over the role.

The contractor for the road construction was assisting in training PWD’s Engineering
Support Unit, which will be responsible for road maintenance. However, an MCA-V
official stated during an April 2010 meeting that PWD was learning how to build roads,
not to maintain them. This comment is further supported by an MCC official who stated
in his April 2010 trip report that PWD and MCA-V were not able to define what activities
were involved in institutional strengthening, which include road maintenance. A draft
Road Maintenance Strategic Plan developed by the Director General of the Ministry of
Infrastructure and Public Utilities provided routine, periodic, and major maintenance
timelines and definitions. 9 However, the plan had not been finalized by the end of audit
fieldwork.




The above photo provided by PWD during the auditors’ site visit of the road shows a failed drain
pipe on the Efate Ring Road, Tanoliu Village. The drain pipe under the homeowner’s driveway
was too small and caused flooding of the ditches. MCC subsequently provided us with a photo
that the drainage failure has been resolved. (Photo by PWD)

Roads may not be properly maintained annually after compact closure. PWD’s lack of
road maintenance capability and GoV’s budget for road maintenance may not be
sufficient to sustain the roads. Sustaining the roads could improve Vanuatu’s economic
activity and investment in the tourism and agricultural sectors. A written strategy
developed by MCC, which would provide support for MCA-V‘s efforts in helping PWD,
would ensure that PWD has the proper capability and funding to maintain the roads and
sustain them annually.
9
    PWD is a department under the Ministry of Infrastructure and Public Utilities.



                                                                                             15
       Recommendation 5. We recommend that the Millennium Challenge
       Corporation’s Vice President of Compact Operation, develop a written
       strategy to support Millennium Challenge Account-Vanuatu’s efforts to
       strengthen Vanuatu’s Public Works Department’s ability to maintain the
       roads.



MCA-Vanuatu Was Not on
Schedule With Closeout

MCA-V was not on schedule to meet MCC’s closeout requirements. Version 6 of the
draft closeout plan did not contain all of the provisions required by MCC policy. MCC did
not approve the plan within the required 360-day period before closeout. Section 5.3 of
MCC’s closeout guidance, 10 “Timeline for Submission, Approval, and Execution of the
Program Closure Plan,” requires that MCC approve compact closeout plans 360 days
prior to compact closure.

The audit team found that the draft plan did not include 13 required provisions. (See
Appendix III.) Without an approved closeout plan, MCA-V cannot begin the closeout
process as required by MCC policy and cannot provide a plan for the proper disposition
of program assets. MCA-V’s draft closeout plan was dated March 2010. According to
MCC, the draft plan (Version 7) has been approved by the GoV’s Steering Committee.
The draft plan was reviewed by the Vanuatu Implementation Support Team, and their
comments are being included in a revised draft plan (Version 8). MCC expected to
receive Version 8 of the draft plan by the end of July 2010 for its approval. The draft
plan should have been approved by at least April 28, 2010, 360 days prior to compact
closure as required by MCC policy. Without an approved closeout plan, MCA-V cannot
begin the closeout process as required by MCC policy and cannot provide detailed plans
for program closure, to include properly disposing of program assets and retaining and
archiving official program documents. For example, without detailed plans, MCA-V
would not be able to account for and dispose of program assets in an orderly manner no
later than the closure date. Also, MCA-V would not be able to ensure the program
closure does not create any environmental health or safety hazards.

Finally, MCA-V could not locate documents that supported meeting its work plan goals
during project implementation. Locations of the documents were unknown because only
one staff member remained from the initial implementation of the project. Also, MCA-V
had not delegated responsibility for maintaining or filing the documents. Therefore, more
than half of the documents that supported the tasks in MCA-V’s work plan could not be
located and provided to the audit team.

       Recommendation 6. We recommend that the Millennium Challenge
       Corporation’s Vice President of Compact Operations finalize Millennium
       Challenge Account-Vanuatu’s draft closeout plan.


10
  Guidelines for the Program Closure of Millennium Challenge Compacts, September 8, 2009,
Version 2.0.



                                                                                      16
Recommendation 7. We recommend that the Millennium Challenge
Corporation’s Vice President of Compact Operations develop written
procedures for the Millennium Challenge Account-Vanuatu on
safeguarding documents that serve as permanent records, and on
locating and identifying key missing documents of program activities.




                                                                        17
EVALUATION OF
MANAGEMENT COMMENTS
The Millennium Challenge Corporation (MCC) provided written comments to our draft
report that are included in their entirety in Appendix II. MCC agreed with all seven
recommendations in the draft report.

For Recommendation 1, MCC agreed with the recommendation. MCC stated that the
latest revision to the monitoring and evaluation (M&E) plan was undertaken during the
OIG audit period and was approved on September 24, 2010. OIG considers that a
management decision has been reached. A copy of the 2010 M&E plan is needed to
show that final action has been reached.

For Recommendation 2, MCC agreed with the recommendation. MCC stated that it has
a process to measure the progress of the project. MCC also stated that it (1) monitors
each of its compacts using quarterly and annual reports, (2) uses the Indicator Tracking
Table (ITT) to report on and monitor all indicators, and (3) analyzes quarterly and annual
indicators against targets in implementation performance reviews. OIG acknowledges
that MCC has a process in place to measure the progress of the projects. Therefore,
final action has been reached.

For Recommendation 3, MCC agreed with the recommendation. MCC stated that
MCA-V’s written responses to the recommendations in the February 2008 and July 2009
data quality reviews will be formally documented and posted on Millennium Challenge
Account-Vanuatu’s (MCA-V) Web site on December 10, 2010. OIG considers that a
management decision has been reached. To reach final action, MCC will need to
provide our office with MCA-V’s written responses to the recommendations and notify
OIG when the responses are posted on MCA-V’s Web site.

For Recommendation 4, MCC stated that the process for approving changes in the
compacts resulting from budget shortfalls is covered in MCC’s Policy on the Approval of
Modifications to MCC Compact Programs, dated August 2, 2010. OIG considers that a
management decision was reached and that final action has been taken on the
recommendation.

For Recommendation 5, MCC agreed with the recommendation. MCC stated that on
July 5, 2010, MCA-V and the Director General of the Ministry of Infrastructure and Public
Utilities agreed on a transition action plan to ensure a comprehensive turnover of road
maintenance responsibilities to the Public Works Department. OIG considers that a
management decision was reached and that final action has been taken on the
recommendation.

For Recommendation 6, MCC agreed with the recommendation. MCC stated that
MCA-V’s compact closure plan was submitted to MCC for formal approval on
September 22, 2010. OIG considers that a management decision was reached and that
final action has been taken on the recommendation.



                                                                                       18
For Recommendation 7, MCC agreed with the recommendation. MCC stated that the
MCA-V compact closure plan describes the arrangements whereby permanent records
have been stored by the fiscal agent and procurement agent in addition to MCA-V’s
records, and how these will be safeguarded to comply with MCC requirements and
Vanuatu legislation. OIG considers that a management decision has been reached. To
reach final action, MCC will need to provide us with a copy of MCA-V’s compact closure
plan.

OIG considered MCC’s responses and made changes to the final report as necessary.
MCC requested that the photos be removed from the audit report. However, OIG
believes that the photos represent road conditions at the time of the audit fieldwork in
April 2010. At that time we did not have any assurance repairs would be made to the
roads. MCC has addressed the issues in its comments and has provided photos
showing that repairs have been made.




                                                                                     19
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted an audit of the Millennium Challenge
Corporation (MCC). The audit was conducted in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions, in accordance with our audit objective. We believe that the
evidence obtained provides that reasonable basis.

The team reviewed selected MCC procedures used to implement the compact and
determine whether the transport infrastructure project in Vanuatu was achieving its
intended result of stimulating economic activity in the tourism and agricultural sectors
through the improvement of transport infrastructure. As of March 31, 2010, MCC had
disbursed $48.5 million out of $65.7 million to Vanuatu. Of that amount, $29.7 million
was disbursed for the Efate Ring Road and $18.8 million for the Santo East Coast Road.

The audit fieldwork was conducted from February 4 through April 29, 2010, at MCC
Headquarters in Washington, DC, and in Vanuatu. In addition, the team visited MCA-V
offices and beneficiaries in or near the cities of Port Vila and Luganville. Interviews were
conducted with the Millennium Challenge Account-Vanuatu’s (MCA-V) procurement
agent and also its fiscal agent, who is in the Government of Vanuatu’s Ministry of
Finance and Economic Management.

We examined the internal control environment by identifying and assessing the relevant
controls. We tested various controls, including documentation, record keeping, and
guidance. In addition, we reviewed prior audit reports and considered relevant findings.

To reach its conclusions, the audit team interviewed MCC and MCA-V staff, Government
of Vanuatu officials and staff, beneficiaries, and international donors. The audit team
also reviewed and analyzed records and reports related to the project.

Methodology
To answer the objective, we performed the following activities:

•   Interviewed MCC and MCA-V staff involved in the implementation of the transport
    infrastructure project.

•   Reviewed relevant documents, interviewed relevant individuals, and visited
    construction sites of the two road projects to confirm the progress of those projects.

For audit testing, we used judgmental sampling to verify whether selected program
objectives were met. Our results cannot be projected to the entire universe.




                                                                                         20
                                                                          APPENDIX II



MANAGEMENT COMMENTS




DATE: September 28, 2010

TO:     Mr. Alvin Brown, Assistant Inspector General
        Millennium Challenge Corporation

FROM: Mr. Patrick C. Fine, Vice President - Department of Compact Operations
      Millennium Challenge Corporation /s/

Dear Mr. Brown:

The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to
the Office of Inspector General’s (OIG) draft report entitled “Audit of the Millennium
Challenge Corporation’s Transport Infrastructure Project in Vanuatu.”

MCC’s specific responses to the seven recommendations in the draft report are detailed
below and in the supplemental information provided as part of this letter which contains
additional information and corrections to specific statements presented in the audit
report.

Recommendation No. 1:         We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Operations, finalize the Millennium
Challenge Account-Vanuatu’s monitoring and evaluation plan by confirming
approval of the plan for implementation.

MCC Response: MCC agrees with this recommendation. MCA-Vanuatu’s Monitoring
and Evaluation Plan was initially approved by MCC for implementation in June 2006. As
part of MCCs continued oversight, the plan was subsequently revised and approved in
June 2009. The latest revision to the plan was undertaken during the OIG audit period
and was approved on September 24, 2010.

Recommendation No. 2:        We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Operations, develop and implement a
process that would measure the progress of projects annually throughout the
compact to help ensure intended results are met.

MCC Response: MCC agrees with this recommendation and currently has a process in
place to measure the progress of projects. MCC monitors each of its compacts via a


                                                                                     21
comprehensive set of quarterly and annual reports, which assists management in
reviewing both progress and impediments towards meeting intended results. One of
these reports, the Indicator Tracking Table, is used to report on and monitor all
indicators. MCC also analyzes quarterly and annual indicators against targets in
implementation performance reviews. Quarterly or semi-annual performance is further
assessed prior to approval of quarterly disbursement requests.

Recommendation No. 3:        We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Operations, direct Millennium
Challenge Account-Vanuatu to formally respond to data quality review
recommendations, and post the reviews and responses on its website as required
by the Millennium Challenge Corporation’s monitoring and evaluation policy.

MCC Response: MCC agrees with this recommendation. In compliance with MCC’s
Policy for Monitoring and Evaluation of Compacts and Threshold Programs, dated May
12, 2009, and as part of MCA-Vanuatu’s close-out strategy, MCA-Vanuatu’s written
responses to the recommendations of the February 2008 and July 2009 data quality
reviews will be formally documented and posted on the MCA-Vanuatu website. The
target date for compliance with the OIG recommendation is December 10, 2010.

Recommendation No. 4: We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Operations develop a written strategy
to resolve budget shortfalls when they occur.

MCC Response: Budget shortfalls may occur for a variety of reasons, and MCC
approaches mitigation for these issues individually, as part of its quarterly portfolio
review process. MCC resolves budget shortfalls dynamically, by working together with
our partner governments utilizing a variety of approaches, including, inter alia, re-
scoping, changes in implementation approaches, additional government contributions,
and contributions from other donors. The process for approving changes in the
Compacts resulting from budget shortfalls is covered in MCC’s Policy on the Approval of
Modifications to MCC Compact Programs, dated August 2, 2010.

Recommendation No. 5:        We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Operations, develop a written strategy
to support Millennium Challenge Account-Vanuatu’s efforts to strengthen
Vanuatu’s Public Works Department’s ability to maintain the roads.

MCC Response: MCC agrees with this recommendation. MCC, as part of its oversight
role and its commitment to sustainability, has regularly supported MCA-Vanuatu’s (and
the Government of Vanuatu’s) efforts to strengthen road maintenance. This support has
resulted in a number of actions designed to further strengthen Vanuatu’s Public Works
Department’s ability to maintain MCC’s road investments. These actions have included
the development of a $5m road maintenance fund with continued annual contribution,
the provision of $1m of road maintenance equipment and complimentary equipment
support via an Australian-funded project. Additionally, on July 5, 2010, MCA-Vanuatu
and the Director-General of the Ministry of Infrastructure and Public Utilities agreed on a
transition action plan to ensure a comprehensive turnover of road maintenance
responsibilities to the Public Works Department.




                                                                                        22
Recommendation No. 6: We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Operations, finalize Millennium
Challenge Account-Vanuatu’s draft closeout plan.

MCC Response: MCC agrees with this recommendation. The MCA-Vanuatu compact
closure plan was submitted to MCC for formal approval on September 22, 2010.

Recommendation No. 7: We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Operations, develop written procedures
for the Millennium Challenge Account-Vanuatu on safeguarding documents that
serve as permanent records, and on locating and identifying key missing
documents of program activities.

MCC Response: MCC agrees with this recommendation. The current MCA-Vanuatu
compact closure plan describes the arrangements by which permanent records have
been stored by the Fiscal Agent and Procurement Agent in addition to MCA-Vanuatu’s
records, and how these will be safeguarded to comply with MCC requirements and
Vanuatu legislation. A process is underway to reconcile MCA-Vanuatu and MCC
records.

In addition to the responses in the management response letter, MCC has found several
factual inaccuracies within the draft report which are addressed herein. Many of the
conclusions in the draft report were based on a site visit conducted in April 2010.
Photographs taken after severe wet weather and during construction have been
mistakenly used to suggest permanent reduced road standards. One of these
photographs is of a road section that was not a part of the design and build contract.
This supplement is intended to correct factual inaccuracies within the draft report. MCC
strongly recommends that the audit photographs be removed to avoid misrepresenting
the facts. We believe that this confusion can be mitigated in the future via an informal
review and mutual exchange prior to the formal submission of the draft report.

OIG Audit of the Millennium Challenge Corporation’s Transport Infrastructure
Project in Vanuatu: Technical Inaccuracies and Factual Errors

  I.      Technical Inaccuracies
       1. Photographs of “road failures”:
             a. The report includes four photographs designated as road failures as
                evidence for Finding Two that the road standards may have been reduced.
                The photographs were taken at a time when 890mm of rain had fallen;
                starting what became the heaviest quarter of rainfall in Vanuatu’s recorded
                history.
                     i. Photograph #1: This photograph depicts a seal edge that was
                        deemed to “appear uneven”. This photo was taken at time when the
                        road had not undergone the final finishing stages of construction,
                        and has since been refined. In addition, the photo appears to have
                        been distorted horizontally and exaggerates the reality.
                    ii. Photograph #2: This photograph shows a causeway damaged from
                        this rainfall. However, this causeway was never part of the design


                                                                                        23
     and build contract and can therefore not be regarded as an example
     of reduced road standards. Nonetheless, and due to MCA-
     Vanuatu’s prudent management, this causeway (and five others
     which were not part of the original contract) have been repaired as
     part of subsequent variations.
iii. Photograph #3: This photograph incorrectly designates that it is of
     “a failed stone-lined drain” on Efate. It actually depicts a drain
     which survived the rain deluge but was covered from the debris of
     a drain higher up the hill which was damaged. The excessive rains
     damaged a total of 80 meters of a total of 18,230 meters (0.4%) of
     stone-lined drains on the two roads. Under the Engineer’s
     supervision, the methodology was reviewed, lessons from the
     excessive rains were learned, and the drains were re-constructed at
     the expense of the road contractor.
iv. Photograph #4: This photograph of the Tanoliu driveway is in an
     area only meters from Ulei creek which flooded severely during
     the historic rainfall. Although the photograph shows flooding in
     the area around the drain, it is not due to a road failure, or a drain
     pipe that was too small as incorrectly noted in the draft report, but
     because of the record rainfall. The drains depicted protected the
     road from any overflow or damage, enabled access to the property,
     and drained within a few hours. While it would be ideal to design
     structures to accommodate record-breaking events, it would remain
     cost-prohibitive and contrary to engineering best practice to design
     to such standards.
 v. All four sections depicted in these photographs have been
     corrected through the normal contract management processes.
     None of them are related to the auditors’ finding that these are
     examples of early implementation problems which may diminish
     program results or reduce standards. The inclusion of these
     photographs and related assertions in the final publicly available
     audit report convey an inaccurate picture of the road standards
     achieved under the compact. We have included updated photos of
     three of the four sites in our response to the draft report to provide
     a clearer understanding of its current state. MCC was unable to
     provide an updated photo of the Santo East Coast Road due to the
     undocumented location of the photo in the draft report.




                                                                        24
                                                                                    
Figure 1: Photo by Downer 09 September 2010 - Efate Ring Road: Causeway Crossing
at Lakenasua




                                                                                    
Figure 2: Photo by Downer 11 September 2010 – Efate Ring Road: Rock Lined Drain
(RLD)



                                                                                       25
                                                                                       
Figure 3 : Photo by Downer 11 September 2010 – Efate Ring Road: Driveway in Tanoliu


2.. Early Implementation Problems May Result in Diminished Project Results”: MCC
    wishes to clarify that the roads have been designed and constructed to a standard
    appropriate to the projected traffic volume, functional standard, and level of service
    expected to provide over service life per internationally applied practices. The
    feasibility study for the roads provided a conceptual design, so all quantities of
    materials were general estimates. Since MCA-Vanuatu decided to award a design-
    build contract, these estimates were used to determine the bidders’ price per unit of
    material. The contract (see “Annex 5: The Employer's Requirements”) stipulated that
    the actual quantities (and the final price) would be determined by the winning bidder
    at the final design stage according to Australian standards, performance specifications
    in the contract (such as lifespan, which was 20 years), and consultations with and
    approval from the Engineer (an Australian firm) and MCA-Vanuatu (project led by an
    Australian road engineer). In addition, MCA-Vanuatu needed approval from MCC’s
    resident country mission and infrastructure director (a road engineer), who in turn
    consulted with the United States Army Corps of Engineers’ experts in road
    engineering. Modifications made to design and quantities were determined according
    to criteria specified for quality and durability and overseen and approved by three
    layers of oversight (the Engineer, MCA-Vanuatu, and MCC). Ultimately, MCC



                                                                                          26
      determined it would not be appropriate to waste U.S. taxpayer money on over-
      engineered roads.


II.      Other Factual Errors

      1. The report incorrectly notes that one engineer from the United States Army Corps
         of Engineers was sent to Vanuatu by MCC, when it was a team of three experts
         including a road specialist, cost engineer, and project manager.
      2. The report incorrectly states that “MCC decided to re-scope the infrastructure
         activity by eliminating 9 of the original 11 subprojects.” This statement
         inaccurately presents the reality of the re-scoping exercise as these two roads
         accounted for 75% of the original Transport Infrastructure Project scope and
         budget.
      3. Re-scoping the compact: This paragraph incorrectly states a decision was made to
         reduce the compact. This paragraph makes a declaration of why the option to
         reduce scope was chosen. MCC kindly requests the source of this statement.
      4. The first paragraph under the photo incorrectly states that the Japan International
         Cooperation Agency constructed a section of road 10 years ago that only now is
         in need of repair. This statement is factually inaccurate as there are two core types
         of maintenance; routine which is regular upkeep, and regularly attended to by
         PWD and; periodic maintenance and repair, which is required every 5-7 years per
         industry standard. Stating that no maintenance has been performed or required for
         10 years is factually inaccurate as periodic maintenance and repair is a
         requirement in order to maintain a sustainable road.
      5. MCC wishes to clarify that the roads were built to the technical specifications as
         outlined in the final design and build contract. The thickness of the road is
         designed to service traffic for 20 years. In addition, it is important to be clear that
         this is a sealed road and not an asphalt road. While the materials are more or less
         the same, the application process is different. Asphalt roads are suited for high
         volume and heavy traffic, such as those in urban areas, while sealed roads are
         ideal for rural areas, which is the case for Vanuatu.
      6. Below is a breakdown of inaccuracies related to the provisions not found in the
         draft closeout plan:
             a. Designate principle representative of the government: The draft closeout
                  plan indicates that the Director General of the Prime Minister’s Office
                  shall continue to act as the Principle Representative covering all matters
                  and issues related to the compact, including those noted in the draft report.
             b. Modification of existing agreements: Section 9 of the draft closeout plan
                  includes a review of existing agreements and any necessary modifications.




                                                                                             27
           c. Submit the Final Quarterly Financial Report during the closeout period:
              Section 5.10 of the MCC Guidelines for the Program Closure of
              Millennium Challenge Compacts, dated September 8, 2009, (the “Closeout
              Guidelines”) describes the treatment of various documents, data, and
              reports before and after the compact end date. Although section 5.10.5 of
              the Closeout Guidelines indicates that MCA-Vanuatu must submit a final
              quarterly financial report during the compact closure period, the guidelines
              do not require that MCA-Vanuatu include a description of the process for
              finalizing this report in the closure plan.
           d. Submit a final report at the end of the closure period indicating that all
              taxes have been exempted or reimbursed by the government: Section 5.10
              of the Closeout Guidelines describes the treatment of various documents,
              data, and reports before and after compact end date. Although section
              5.10.6 of the Closeout Guidelines indicates that MCA-Vanuatu must
              submit a final report regarding the treatment of taxes the Closeout
              Guidelines do not require that MCA-Vanuatu include a description of the
              process for finalizing this report in the program closure plan.
           e. Submit a final Indicator Tracking Table in the M&E Plan within the
              closure period: Section 5.13 of the Closeout Guidelines notes that the
              accountable entity should submit a final Indicator Tracking Table within
              the compact closure period no later than 45 days after the end of the
              compact. It is not required to be included as part of the closure plan, but
              has been noted in section 6.1 of the draft closeout plan.

Thank you for the opportunity to provide our comments on the draft report.




                                                                                       28
                                                                          APPENDIX III



PROVISIONS NOT FOUND IN
DRAFT CLOSEOUT PLAN
Version 6 of the Millennium Challenge Account for Vanuatu’s draft closeout plan did not
contain all the provisions as required by MCC’s Guidelines for the Program Closure of
Millennium Challenge Compacts, dated September 8, 2009.             Below shows the
provisions MCA-V needs to include in its closeout plan.

   1. Provide an outline of the Project Completion Report
   2. Designate principal representatives of the government who would:
       a. Liaison as necessary with MCC and independent evaluators contracted by
           MCC to conduct an evaluation of the program, including impact evaluations.
       b. Retain and archive all official documents and records for a minimum of 5
           years after the compact end date (the draft plan contained provisions for the
           archiving of financial documents only)
       c. Respond to auditors
   3. Evaluate the method of disposition of program assets that include:
       a. the ability to use the program asset to sustain the goals and objectives of the
       compact
       b. the value and remaining useful life of the program asset
       c. the practicality of the disposition method
   4. Provide criteria that ensured program vehicles will be used to further the
       objectives of the compact
   5. Identify the disposition of intellectual property
   6. Identify the disposition of Imprest Fund cash
   7. Identify the management of cash flow
   8. Conduct environmental assessments
   9. Review of existing agreements to determine if they need modifying
   10. Submit the final Quarterly Financial Report during closeout period
   11. Submit a final report at the end of the closure period indicating that all taxes
       have been exempted or reimbursed by the government
   12. Identify actions for retaining and safekeeping records
   13. Submit a final indicator tracking table (ITT) in the monitoring and evaluation
       plan within the closure period

Based on the draft at the time of the audit fieldwork, the above provisions were not
included in the closeout plan. According to MCC officials, the draft has been
subsequently updated.




                                                                                      29
       Office of Inspector General
for the Millennium Challenge Corporation
      1401 H Street, NW, Suite 770
         Washington, DC 20005
           Tel: (202) 216-6960
          Fax: (202) 216-6984
           www.usaid.gov/oig
